GR-90-98-003
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE CITY OF SAN FRANCISCO POLICE DEPARTMENT
CALIFORNIA
GR-90-98-003 
FEBRUARY 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of four
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the San Francisco Police Department (SFPD). The SFPD received
a grant of $2,000,000 to hire or rehire 20 additional sworn police officers under the
Phase I program, and $1,950,000 to hire or rehire 26 officers under the Accelerated
Hiring, Education, and Deployment (AHEAD) program. The SFPD received a MORE 95 grant of
$3,022,980 and a MORE 96 grant of $1,558,717 to redeploy 507 sworn officer full-time
equivalents (FTEs). The purpose of the additional funds provided by the grants is to
enhance community policing efforts. 
Generally, SFPD properly implemented the community policing efforts described in its
applications. However, the SFPD violated some grant conditions:


- The SFPD requested reimbursement for the salary and fringe benefits of an officer who
    had been suspended without pay for a two-week period. As a result the June 30, 1997,
    request for reimbursement exceeded expenditures, resulting in questioned costs of $1,721.
- In addition, based on our review of OJP Grantee Payment Records, we determined that
    two checks for the same amount were drawn based on the substantially identical H-3
    Reports, submitted by the SFPD on June 12, 1996.


 
#####